UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3602
Jason August Eisenach
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:20-cv-00678-DSD)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
April 12,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3602
Jason August Eisenach
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:20-cv-00678-DSD)
MANDATE
In accordance with the judgment of 02/12/2021, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
April 19, 2021

Clerk, U.S. Court of Appeals, Eighth Circuit

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3602

Jason August Eisenach
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:20-cv-00678-DSD)
JUDGMENT

Before COLLOTON, STRAS, and KOBES, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully, reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
February 12, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Cans

CASE 0:16-cr-00267-DSD-LIB Doc.103 Filed 10/26/20 Page 1 of 1

UNITED STATES DISTRICT COURT
District of Minnesota
United States of America,

Case No. CR 16-267 DSD/LIB

Plaintiff
JUDGMENT IN A CRIMINAL CASE

v.
Jason August Eisenach,
Defendant.

IS

Decision by Court. This action came to trial or hearing before the Court. The issues have
. been tried or heard and a decision has been rendered.
IT IS ORDERED THAT:

1.

The motion to expand the record [ECF No. 88] is granted;

2.

The motion to vacate pursuant to § 2255 [ECF No. 89] is denied; and

3.

. Pursuant to 28 U.S.C. § 2253, the court denies a certificate of appealability.

- Date: October 26, 2020
KATE M. FOGARTY. CLERK

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 1 of 12

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Criminal No. 16-267(DSD/LIB)
United States of America,
Plaintiff,
v.

ORDER

Jason August Eisenach,
Defendant.

This matter is before the court upon pro se defendant Jason
August Eisenach's motions to expand the record and to vacate under
28 U.S.C.

§ 2255.

Based on a review of the record,

file,

and

proceedings herein, and for the following reasons, the motion to
expand the record is granted and the motion to vacate is denied.

BACKGROUND
On October 4,

2016,

Eisenach was indicted on one count of

distribution of child pornography and one count of possession of
child pornography.

The government filed a superseding indictment

on June 22, 2017, charging Eisenach with one count of receipt of
child pornography and one count of possession of child pornography.
Eisenach pleaded guilty to both counts on September 1, 2017, and
was sentenced to 96 months' imprisonment and 15 years of supervised
release in December of that year.

It is what happened between the

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 2 of 12

October 2016 indictment and the September 2017 guilty plea that
forms the basis of Eisenach's request for relief under § 22551
After being indicted, Eisenach's asserted defense was that he
did not know that the images at issue were child pornography until
after he looked at them — at which point he claimed he deleted the
photos — and thus'he did not knowingly receive or possess child
pornography.

See ECF No.

95 Ex. 3, at 15-16.1

that sometime before December 12,

Eisenach states

2016, his defense counsel told

him that "no reasonable jury would find [Eisenach] guilty beyond
a reasonable doubt." Eisenach Decl. f 3, ECF No. 90.
on

December

12,

2016,

Eisenach's

defense

counsel

Nevertheless,
moved

for

a

continuance on the grounds "that the forensic computer discovery
and the alleged use of electronic devices involved in this case"
required analysis and that he was exploring retaining an expert to
analyze the evidence.

ECF No. 22.

In the statement of facts in

support of the motion signed by Eisenach, he stated that he had
discussed the matter with his defense counsel and agreed with the
need for additional time to "analyze and prepare the defense to
the forensic computer issues involved, including the retention and
preparation of any expert witness."

i

ECF No. 23.

For the sake of clarity, the court cites to the page numbers
assigned by CM/ECF.
2

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 3 of 12

On

February-

continuance

due

7,

2017,

to

the

defense

need

to

counsel

further

again

analyze

moved
the

for

a

forensic

computer discovery and alleged use of electronic devices in the
crime.

EOF No.

25.

Eisenach again acknowledged that he had

discussed the matter with his defense counsel and agreed that more
time was

EOF No.

needed.

26.

After

the

government

filed a

superseding indictment in June of 2017, defense counsel moved for
a third and final continuance on June 26,

2017.

EOF No.

35.

Defense counsel's motion was based on the need to analyze and
prepare

a defense

pornography.

against the new charge

Id.

As

with

the

first

of receipt of child

two

motions,

Eisenach

acknowledged that he had discussed the matter with his defense
counsel and agreed with the need for more time.
After

the

third

motion

for

continuance

Eisenach's trial was set for September 6, 2017.
'etime

in August,

isenach,

ECF No. 36.

following his

was

granted,

See ECF No. 37.
counsel's

advice,

signed a stipulation stating that the individuals depicted in the
images at issue were real people, that those people were under the
age of 18, and that the images were produced outside of Minnesota.
See ECF No. 95 Ex. 1.

That stipulation was then included in the

government's proposed exhibit list submitted shortly before trial.
See ECF No. 43.

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 4 of 12

Instead of proceeding to trial, Eisenach pleaded guilty on
September 1, 2017.

At his change of plea hearing, Eisenach stated

that he was there voluntarily and understood what was happening at
ECF No. 69, at 4, 25.

the hearing.

He was asked twice whether he

was satisfied with his defense counsel's performance,
times he stated that he was.

Id. at 5, 27.

and both

Eisenach stated that

he had had enough time to speak to his defense counsel, and that
defense counsel had answered all of his questions and told him
what

he

thought would happen

if he proceeded to

trial.

Id.

Further, when asked if he had discussed whether to plead guilty
with his defense counsel, he agreed that he had done so many times.
He also agreed that he had always been told that it

Id. at 25.

was his decision whether to plead guilty, and that he had to make
that

decision

expressed

some

knowingly

and

apprehension

voluntarily.
to

pleading

Although

Id.
guilty,

after

a

he

long

colloquy 'in which the court explained to Eisenach that he was not
required to plead guilty and he had a right to proceed to trial if
he believed he was not guilty, Eisenach agreed that he was guilty.
Id. at 27-32.
Eisenach appealed his sentence, and the Eighth Circuit Court
of Appeals affirmed.
on March 5,
counsel.

2020,

Eisenach timely filed this motion to vacate

on the grounds of ineffective assistance of

Eisenach- first argues
4

that

his

defense

counsel was

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 5 of 12

ineffective because he moved for the three continuances,

which

Eisenach asserts gave the government time to strengthen its case
against him.

ECF No.

91,

Eisenach contends that his

at 7-10.

defense counsel sought the continuances because he was not prepared
and was not diligent in his investigation.

Id.

Second, Eisenach

argues that his defense counsel was ineffective because he advised
him to sign the stipulation mentioned above.

Id.

Eisenach asserts

that this stipulation "contained substantially all of the elements
of

the

offenses

charged,"

and was

therefore

strategic decision designed to benefit him.
9.

not

a

reasonable

See ECF No. 91, at 8-

The government opposes Eisenach's motion.

DISCUSSION
I.

Expanding the Record on a § 2255 Motion
Eisenach

has

moved

to

expand

submitted declaration and exhibits.

the

record

to

See ECF No. 88.

include

his

In addition,

the government has filed a declaration and exhibits from Eisenach's
defense counsel.

Under Rule 7 of the rules governing § 2255 cases,

the court may accept and consider such documents when ruling on a
motion to vacate.
1207 (8th Cir. 2013) .

See Thomas v. United States,

737 F.3d 1202,

The court therefore grants Eisenach's motion

and will consider the documents filed by both sides in support of
their positions.
5

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 6 of 12

II.

Section 2255 Standard
Section

opportunity

2255
to

provides

challenge

jurisdictional basis
relief

is

of

a

the

federal

inmate

with

constitutionality,

an imposed sentence.

an extraordinary remedy,

a

limited

legality,

This

or

collateral

reserved for violations

of

constitutional rights that could not have been raised on direct
appeal.
1996).

United States v.

Apfel,

97 F.3d 1074,

When considering a § 2255 motion,

evidentiary hearing.
required,

however,

"(1)

the

(8th Cir.

a court may hold an

See 28 U.S.C. § 2255 (b) .
when

1076

A hearing is not

petitioner's

allegations,

accepted as true, would not entitle the petitioner to relief, or
(2)

the allegations cannot be accepted as true because they are

contradicted by the record, inherently incredible, or conclusions
rather than statements of fact."
F.3d 720,

722

marks omitted).

(8th Cir.

2003)

Sanders v. United States,

341

(citation and internal quotation

As discussed below, no hearing is required because

Eisenach's claims are either contradicted by the record or facially
meritless.
III. Ineffective Assistance of Counsel
To prevail on a claim of ineffective assistance of counsel,
Eisenach must meet both prongs of the test set forth in Strickland
v.

Washington,

466 U.S.

668

(1984) .

First,

Eisenach must show

that his counsel's performance was so deficient that it fell below
6

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 7 of 12

the level of representation guaranteed by the Sixth Amendment.
"There is a strong presumption that counsel's conduct

Id. at 687.
falls

within

the

wide

range

of

professionally

N
assistance anca sound
trial strategy\"
956 F.3d 1001,

1006

Cir.

2TT20)

reasonable

Jackson v. United States,
(quoting Toledo v.

United

(8th Cir. 1990)).

States, 581 F.3d 678

Second,(he musC establish^prejudice py showing "a reasonable
probability that,

ouriSUl' s unprofessional errors,

bu

result of the proceedings would have been different."
"An error by counsel,

466 U.S. at 694.
unreasonable,

the

Strickland,

even if professionally

does not warrant setting aside the judgment of a

criminal proceeding if the error had no effect on the judgment."
Id. at 691.

In the context of a guilty plea such as Eisenach's,

he can establish prejudice by showingC'that there is a reasonable
probability that,

but

for counsel's errors,

he would not have

leaded guilty and would have insisted on going to trial."

Hill

v. Lockhart, 474 U.S. 52, 59 (1y85) .
A. Continuances
Eisenach first contends that his counsel was ineffective in
requesting
Eisenach,

three
allowed

against him.

separate
the

continuances

government

time

to

that,

according

strengthen

its

to
case

Eisenach states that the reason for each continuance

was that his defense counsel was not prepared.
7

Because Eisenach's

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 8 of 12

counsel

submitted

a

declaration

contesting

this

assertion,

Eisenach argues that an evidentiary hearing) is required to resolve
any credibility and factual

'he court disagrees, as the

xapuLes7

record makes clear that Eisenach's assertions lack merit.
Each motion for continuance was accompanied by an explanation
from Eisenach's counsel and a statement of facts signed by Eisenach
regarding the reason for the request26.
to

See ECF Nos. 22, 23, 25,

Eisenach agreed that the first two continuances were needed
investigate,

analyze,

and prepare

forensic computer issues involved.

a

defense

regarding

the

Further, Eisenach agreed that

the third continuance was necessary to analyze and prepare defenses
to the superseding indictment.

These statements of fact belie

Eisenach's

that

current

continuances

simply

assertion
because

he

was

his

counsel

unprepare^,

and

requested
thus

an

evidentiary hearing on the matter is not required.
The question then becomes whether the requested continuances
constitute a performance so deficient as to rise to the level of
ineffective assistance of counsel.
broad

leeway

in

including whether
request

planning
to

and

request

for a continuance.

Nazarenus v. United States,

Defense counsel is provided

executing

a
See

a

continuance

defense
or

Strickland,

69 F.3d 1391,

1394

strategy,

acquiesce

466 U.S.

at

to

a

689;

(8th Cir. 1995);

United States v. Antwine, 873 F.2d 1144, 1149 n.8 (8th Cir. 1989).

8

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 9 of 12

the court rejected defendant's claim of ineffective

In Antwine,

assistance of counsel based on counsel's request for a continuance,
finding that the request "represented his effort to provide the
most effective assistance possible by allowing adequate time to
prepare a defense."

873 F.2d at 1149 n.8.

And in Nazarenus, the

court held that counsel was not ineffective even after acquiescing
to a government-requested continuance that allowed the government
to strengthen its case against the defendant.

See 69 F.3d at 1394.

Similarly here, the record illustrates that defense counsel's
decision

to

acquiescence

request
to

each,

three

continuances,

represents

a

and

roa&endb'le-

Eisenach's
•ef-

to

investigate, analyze,^ and prepare the best defense possible.
such,

defense counsel's1

^rformance was not deficient,

As

and the

court need not analyze whether Eisenach was prejudiced by these
decisions.
B. Stipulation
Eisenach next argues that defense counsel was ineffective in
advising him to sign a stipulation regarding certain facts before
trial.

Eisenach now contends that this stipulation "contained

substantially all of the elements of the offenses charged," and
his counsel was therefore deficient in advising him to sign it and
he was prejudiced by its existence.

9

No evidentiary hearing is

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 10 of 12

required before disposing of this claim because it is facially
meritless.
The following facts were in the stipulation: the individuals
depicted in the images at issue were real people, they were people
under the age of

18,

nd the^-arTfrgges were produced outside of

Minnesota.

o be convicted of receipt or possession of child

pornography,

the

government

needed

to

prove

knowingly received or possessed the images,

that

Eisenach

"using a means and

facility of interstate and foreign commerce and that had been
mailed,

shipped and transported in and affecting interstate and

foreign commerce,

by any means including a computer," and that

those images contained visual depictions of a minor engaging in
sexually explicit conduct.

See 28 U.S.C. § 2252 (a) (2),

(a) (4) (B) .

A comparison of the stipulation against what is required to convict
someone of receipt or possession of child pornography clearly shows
that Eisenach was not advised to stipulate to "substantially all"
of the elements required.
Further,

like his claim above,

this argument fails because

the decision to enter a stipulation of this kind can be part of a
reasonable strategy, especially where the stipulation does not in
any way impede defendant's chosen line of defense.

See Lemon v.

United States, 335 F.3d 1095, 1096 (8th Cir. 2003).
counsel's

advice

to

enter

the
10

stipulation

could

And even if
be

deemed

CASE 0:16-cr-00267-DSD-LIB Doc. 102 Filed 10/23/20 Page 11 of 12

Eisenach has not shown how he was prejudiced by this

deficient,
decision.

Stipulating to

the

above

facts

in no way hindered

Eisenach's chosen defense that, as evidenced by his claim that he
deleted the images immediately on realizing what they depicted, he
did

not

knowingly

pornography.

or

Eisenach

intentionally
has

failed

receive
to

or

possess

establish

that

child
he

was

prejudiced by this decision because he has not shown that there is
a reasonable probability that he would not have pleaded guilty but
for the existence of this stipulation.
ineffective

assistance

of

counsel

As such,

relating to

his claim of

the

stipulation

fails.
IV.

Certificate of Appealability
To warrant a certificate of appealability, a defendant must

make a "substantial
right" as
showing"

showing of the denial of a constitutional

required by 28 U.S.C.
requires

a

petitioner

A "substantial

§ 2253(c) (2) .
to

establish

that

"reasonable

jurists" would find the court's assessment of the constitutional
529 U.S.

473,

claims "debatable or wrong."

Slack v. McDaniel,

483-84

firmly convinced that Eisenach's

(2000).

The court ' is

motion is baseless, and that reasonable jurists could not differ
on the results.

A certificate of appealability is not warranted.

11

CASE 0:16-cr-00267-DSD-LIB Doc.102 Filed 10/23/20 Page 12 of 12

CONCLUSION
Accordingly, IT IS HEREBY ORDERED that:
1.

The motion to expand the record [ECF No. 88] is granted;

2.

The motion to vacate pursuant to § 2255 [ECF No. 89] is

denied; and
3.

Pursuant

to

28

U.S.C.

§ 2253,

the

court

denies

certificate of appealability.
LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: October 23, 2020
s/David S. Doty
David S. Doty, Judge
United States District Court

12

a

•

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
AT MINNEAPOLIS
JASON AUGUST EISENACH,

)
)

Movant,

)

USDC Case No. 0:20-cv-

)
V.

)
)

USDC Case No. 0:16-cr-267

UNITED STATES OF AMERICA, )
)

Respondent.

)

Hon. David S. Doty
Senior U.S. District Judge

PRO SE MEMORANDUM OF LAW IN SUPPORT
OF MOTION TO VACATE, SET ASIDE OR CORRECT A FEDERAL
SENTENCE OR CONVICTION PURSUANT TO 28 U.S.C. §2255
[Return Date to be Fixed by the Court]
COMES NOW JASON AUGUST EISENACH, Movant pro se, in the
above styled and numbered cause, and respectfully submits this
Memorandum of Law in support of the Motion to Vacate pursuant to 28
U.S.C. §2255, and would show the Court the following facts, circumstances,
and points of law:

I. Introduction
Mr. Eisenach asks this Honorable Court to vacate his convictions and
sentence on the basis that they were the result of ineffective assistance of
counsel. Specifically, former counsel was constitutionally deficient for
unnecessarily delaying Mr. Eisenach's original trial setting - including
repeatedly waiving Mr. Eisenach's constitutional and statutory right to a
speedy trial - from the original January 17,2017 setting, immediately prior to
which point counsel assessed that "no reasonable jury would find [Mr.
Eisenach] guilty beyond a reasonable doubt," until September 2017, when by
August 2017, counsel assessed that "there was no way he could win [Mr.
Eisenach's] case." Counsel was also constitutionally deficient for advising Mr.
Eisenach to stipulate to elements of the charged offenses. Absent counsel's
deficiencies there is a reasonable probability that Mr. Eisenach would have
proceeded to trial as he originally intended.
Mr. Eisenach's plea was unknowing, unintelligent, and involuntary
based on counsel's ineffective assistance. The convictions and sentence

2

*> •

resulting from the plea should be vacated and Mr. Eisenach returned to the
pre-plea stage of proceedings in the criminal case.
II. Jurisdiction
Pursuant to 28 U.S.C. §2255, "[a] prisoner in custody under sentence of
a court established by Act of Congress claiming the right to be released upon
the ground that the sentence was imposed in violation of the Constitution or
laws of the United States,... or is otherwise subject to collateral attack, may
move the court which imposed sentence to vacate, set aside, or correct
sentence." Mr. Eisenach so moves this Court on grounds that his sentence was
imposed and his conviction obtained as a result of proceedings wherein he
was denied the effective assistance of counsel.
III. Review Standards
A motion for relief under §2255 follows the procedures established by
the "Rules Governing Section 2255 Cases in the United States District Courts"
("Rules"). The text of §2255 states that "[ujnless the motion and the files and
records of the case conclusively show that the prisoner is entitled to no relief,

3

the court shall cause notice thereof to be served on the United States attorney,
grant a prompt hearing thereon, determine the issues and make findings of
fact and conclusions of law with respect thereto."1 Similarly, the Rules dictate
that, upon initial consideration by the assigned District Judge, a §2255 motion
should be dismissed only "if it plainly appears from the motion, any attached
exhibits, and the record of prior proceedings that the moving party is not
entitled to relief."2 In all other cases, "the judge must order the United States
attorney to file an answer, motion, or other response within a fixed time, or
to take action the judge may order."3 The Rules authorize, where appropriate
and by order of the Court, discovery proceedings, an expansion of the record,
and an evidentiary hearing.
Subsequent to the "Preliminary Review" stage set out in Rule 4, the
ultimate legal standard for motions brought pursuant to §2255 is prescribed
by statute:
28 U.S.C. §2255 (emphasis added).
Rule 4(b) (emphasis added).

Id.
4

If the court finds that. . . the sentence imposed was
not authorized by law or otherwise open to collateral
attack, or that there has been such a denial or
infringement of the constitutional rights of the
prisoner as to render the judgment vulnerable to
collateral attack, the court shall vacate and set the
judgment aside and shall discharge the prisoner or
resentence him or grant him a new trial or correct the
sentence as may appear appropriate.4
IV. Ground for Relief
A.

Ground One:
Mr. Eisenach's Plea was not Knowingly, Intelligently and Voluntarily
Entered as a Result of Ineffective Assistance of Counsel
[1].

The Applicable Standard

Mr. Eisenach may challenge the entry of his plea of guilty on the basis
that counsel's ineffectiveness prevented the plea from being knowing and
voluntary. Tollett v. Henderson, 411 U.S. 258,267,93 S.Ct. 1602,36 L.Ed.2d 235
(1973). In Hill v. Lockhart, 474 U.S. 52,106 S.Ct. 366,88 L.Ed.2d 203 (1985), the
Supreme Court held that the two-part test set forth in Strickland v. Washington,

28 U.S.C. §2255.
5

466 U.S. 668,104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), applies to cases involving
guilty pleas. United States v. Regenos, 405 F.3d 691, 693 (8th Cir. 2005). To
prevail on a claim of ineffective assistance of counsel, Mr. Eisenach must
show that his counsel's actions fell below an objective standard of
reasonableness and that he suffered prejudice as a result. Strickland v.
Washington, 466 U.S. 668,104 S.Ct. 2052, 80 L.Ed.2d 674 (1984); United States
v. Thompson, 872 F.3d 560, 566 (8th Cir. 2017). In the context of this claim, the
prejudice showing requires that Mr. Eisenach "must show that there is a
reasonable probability that, but for counsel's errors, he would not have
pleaded guilty and instead would have insisted on going to trial." Hill, 474
U.S. at 59 (1985); Thompson, 872 F.3d at 566. The Supreme Court recently
clarified that this requirement is not contingent on the defendant having a
reasonable defense, or any objective likelihood of acquittal, because the error
which is being remedied is the "denial of the entire judicial proceeding... to
which he had a right." Lee v. United States, 137 S.Ct. 1958,1965 (2017).

6

[2].

Deficient Performance

Counsel was constitutionally deficient for unnecessarily delaying Mr.
Eisenach's trial - including repeatedly waiving Mr. Eisenach's constitutional
and statutory right to a speedy trial - from the original January 17, 2017
setting, immediately prior to which point counsel assessed that "no
reasonable jury would find [Mr. Eisenach] guilty beyond a reasonable
doubt/'5 until September 2017, when by August 2017, counsel assessed that
"there was no way he could win [Mr. Eisenach's] case."6 The basis for
counsel's deteriorating appraisal of Mr. Eisenach's chances at trial are directly
attributable to counsel's deficiency in failing to be prepared and failing to
move the case forward to a timely trial in January 2017. Specifically, between
January and September of 2017, due to former counsel's lack of diligence, the

5
See EX #1, Declaration of Jason August Eisenach, in Support of
Motion to Vacate, Set Aside or Correct a Federal Sentence or Conviction Pursuant
to 28 LZ.S.C. §2255, J[3 [attached to the contemporaneously submitted
Motion to Expand the Record].
See EXn,<$8.
1

United States obtained a superseding indictment/ altering the count one
offense from distribution of child pornography - an offense for which there
was clearly insufficient evidence8 - to receipt of child pornography/ and
gathered substantially more inculpatory evidence against Mr. Eisenach.10
Counsel was also constitutionally deficient for advising Mr. Eisenach to
stipulate to elements of the charged offenses.11 See, e.g., United States v. McCoy,
410 F.3d 124, 130-135 (3d Cir. 2005) (trial counsel's decision to stipulate to
elements of knowledge and intent may constitute ineffective assistance of
counsel). This is true, because: 1) the rationale provided by counsel makes no
sense as it advances none of a trial defendant's interests12 and therefore cannot
be considered a reasonable strategic decision; 2) Mr. Eisenach received

DE #31.
See EX#1,J3.
Compare DE #1 with DE #31; See also, EX #1, f6.
10

See EXn, W-

11

Id., 14.

12

See EX #1, J4.
8

absolutely no benefit from his stipulation, made at a time when they remained
in the posture of proceeding to trial; and 3) that stipulation contained
substantially all of the elements of the offenses charged, i.e., that Mr. Eisenach
knew that he was receiving child pornography containing images of real
children and that those images had moved in interstate commerce.
"Convictions for receipt and possession of child pornography turn on
essentially the same requirements and evidence. The elements of receipt
under 18 U.S.C. § 2252(a)(2) require the defendant to knowingly receive an
item of child pornography, and the item to be transported in interstate or
foreign commerce. The elements of possession under 18 U.S.C. § 2252(a)(4)(B)
require the defendant to knowingly possess an item of child pornography,
and the item to be transported in interstate or foreign commerce by any
means." United States v. Worthey, 716 F.3d 1107,1113 (8th Cir. 2013) (internal
citations omitted).
After former counsel advised Mr. Eisenach to stipulate to all elements
of the offenses by signing a written stipulation that Mr. Eisenach knew that

9

the material he found was in fact child pornography, that those depicted were
in fact children, and that the images moved in interstate commerce, the United
States included reference to the written stipulations in its trial brief13 and
listed the written stipulations as potential trial exhibits.14 There is absolutely
no strategic or reasonable basis for an attorney to advise his client to stipulate
to all elements of an offense when that client intends to proceed to trial.
Former counsel's delay, at the point he recognized that "no reasonable
jury would find [Mr. Eisenach] guilty beyond a reasonable doubt, //15 fell
below the minimal level of competence demanded of criminal defense

13
See DE Ml, pp. 11-12 ("2. Stipulations The government and the
defendant have agreed to stipulate to the interstate commerce element of
the charged offenses, as well as to the fact that the children depicted in the
child pornography are real people under the age of 18 at the time those
files were produced. The parties have also stipulated that the records of
Internet service provider CenturyLink are authentic business records
covered by Federal Rule of Evidence 803(6). The government will offer the
signed stipulations as exhibits during trial.").
14
See DE #43, p. 3 ("Plaintiff's Exhibit No. 66 - Stipulation as to
children and interstate commerce.").
See EX #1,53.
10

t

counsel.16 The same is true of counsel's inexplicable advice that Mr. Eisenach
should agree to stipulations which were essentially a confession to the
offenses changed in the superseding indictment. See, e.g., United States v.
McCoy, 410 F.3d 124,130-135 (3d Cir. 2005). Former counsel's deficiencies left
his client with no choice but to plead guilty and constitute a total abdication
of counsel's defense function under the Sixth Amendment.
[3],

Prejudice

Absent counsel's lack of diligence, unpreparedness, and inexplicable
misadvice that Mr. Eisenach should stipulate to the elements of the offenses

16
The factual bases offered to support counsel's request for
continuances and for waiving his client's right to a speedy trial were: 1) On
December 12, 2016, "the need for additional time to analyze and prepare
the defense to the forensic computer issues involved, including the
retention and preparation of any expert witnesses." DE #23; 2) On February
7,2017, "the need for additional time to analyze and prepare the defense to
the forensic computer issues involved." DE #26; and 3) On June 26, 2017,
"the need for additional time to analyze and prepare the defense to the
superseding indictment for which the first appearance is on 07/10/2017."
DE #36. The legitimacy of the first two are called into question by counsel's
assessment that no reasonable jury could find Mr. Eisenach guilty - See EX
#1, - and the third would have been unnecessary but for the delays
occasioned by the two prior illegitimately sought continuances.
11

V'.

$

charged, there is a reasonable probability that Mr. Eisenach would have
persisted in his plea of not guilty and proceeded to exercise his right to a trial
by jury.17 Mr. Eisenach only pleaded guilty because counsers deficiencies left
him with no other option.18 This reality is supported by the fact that Mr.
Eisenach had previously rejected a more favorable plea offer, which capped
his sentence exposure at 5 years' imprisonment.19 Further buttressing the
reasonable probability that Mr. Eisenach would have proceeded to trial but
for counsel's deficiencies is the record of Mr. Eisenach's change of plea
hearing, held September 1,2017, which demonstrated that he was reluctantly
'pleading guilty because his former counsel has advised him that he would
lose at trial - as a direct result of counsel's deficiencies.
THE COURT: Has [former counsel] told you what he
thinks ought to happen in this case or what would
happen if you went to trial?
THE DEFENDANT: Yes.

17

See EX#1,<H8,10.

18

Id.

19

Id., J5.
12

-r

THE COURT: Has he told you what he thinks will
happen here when you are pleading guilty?
THE DEFENDANT: Yes.
THE COURT: Okay. And you are still willing to plead
guilty?
THE DEFENDANT: Yes.
THE COURT: Do you believe you are guilty?
THE DEFENDANT: Yes and no, to be honest.
THE COURT: Well, what’s the no?
THE DEFENDANT: I — I don’t know if you know my
history or anything, but I was planning on getting
into law enforcement. You know, I found this stuff
years ago on a computer with a -- on the old hard
drive and I was snooping around on my phone. I
found a similar program on — for my phone and I —
it just went too far, and this is where I am.
THE COURT: But you don’t disagree that that's where
you are, right?
THE DEFENDANT: I — I am guilty because I should
have left it alone, like the first time.
THE COURT: Okay.
THE DEFENDANT: And that's why I am here.
THE COURT: So I want to make -THE DEFENDANT: I want to take responsibility and
— you know, I didn't think it was going to be this bad.
I was planning on going to trial. I didn't want to
come here and do this, but after hearing everything
13

%

against me, this is the only course that makes sense
and *****

THE COURT: All right. And so I'm going to ask the
question again that you had doubts about, but I want
to make sure that you don't have doubts about, and
that is whether you believe you are guilty of the
charges in the indictment.
THE DEFENDANT: You know, the evidence is there
against me. It doesn't matter why I did it. The
evidence is there, and it can't be erased, and I'll lose.
*****

THE DEFENDANT:... I have no choice hut to plead
guilty.
*****

THE DEFENDANT:... I don't want to sit there and
try to fight a losing war. If I'm going to lose at war,
then it's not even worth fighting, is what I am saying.
*****

THE COURT: And, again, I'm going to ask you, do
you now wish to plead guilty?
THE DEFENDANT: Well, I wish I didn't have to, hut
I will, sir.
THE COURT: Okay. So I'm going to ask you -THE DEFENDANT: I wish I didn't have to, but I
will.
DE # 69, pp. 27-32 (emphasis added).
14

I
s'-

Had counsel not unnecessarily delayed Mr. Eisenach's trial - allowing
the prosecution time to gather additional evidence and correct the count one
charging error - and not unreasonably advised Mr. Eisenach to stipulate to
the elements of the offenses charged, there is a reasonable probability that he
would have persisted in his plea of not guilty and proceeded to trial by jury.
After all, just as Mr. Eisenach told the Court at his change of plea hearing "he
was planning on going to trial,"20 until his counsel's deficiencies left him with
"no choice but to plead guilty. n 21
V. Prayer for Relief
Mr. Eisenach's plea was entered as a result of ineffective assistance and
is therefore neither knowing or voluntary. See, e.g., Tollett v. Henderson, 411
U.S. 258, 267 (1973). Moreover, a conviction obtained by such plea must be
reversed. See, e.g,, Hill v. Lockhart, 474 U.S. 52 (1985). The Supreme Court
recently clarified that this requirement is not contingent on the defendant

20

DE #69, p. 28.
Id., p. 30.
15

'r c

having a reasonable defense, or any objective likelihood of acquittal, because
the error which is being remedied is the "denial of the entire judicial
proceeding ... to which he had a right."Lee v. United States, 137 S. Ct. 1958,
1965 (2017).
Mr. Eisenach was deprived of rights guaranteed by the Fifth and Sixth
Amendments to the United States Constitution in connection with his plea in
this case. Mr. Eisenach seeks to vindicate those rights in this Court. Mr.
Eisenach has established entitlement to, and respectfully requests vacation of
his convictions and sentence.
Respectfully submitted this

day of February, 2020.

Jason A. Eisenach, Pro Se
Register # 20895-041
FCI Elkton
P.O. Box 10
Lisbon, OH 44432

16

«

%

*

' o

VI. Verification
I, Jason August Eisenach, verify under penalty of perjury, pursuant to
28 U.S.C. §1746 that the foregoing is true and correct. Executed this
of February, 2020.

Jason A. Eisenach, Pro Se
Register # 20895-041
FCI Elkton
P.O. Box 10
Lisbon, OH 44432

17

day

